1
No
IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER KNUTE SKAGEN
Petitioner,
v.

OREGON STATE BAR
Respondent.
*■::

On Petition for a Writ of Certiorari
To the Oregon Supreme Court

■.

■

FILED
APR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Christopher Knute Skagen, OSB 91102
pro se
82 Queens Drive, #12,
Lyall Bay,Wellington,
New Zealand 6022
Ph: 02041242740.
skagenlaw@gmail.com

Susan Cournoyer, OSB #863381
Counsel ofRecord
Oregon State Bar
16037 Upper Boones Ferry Road,
Tigard, OR 97281-1935
Ph: (503)620-0222 x 324.
SCournoyer@osbar.org ,/• . % •

RECEIVED
APR 3 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

2

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has not previously been granted leave to proceed in forma
pauperis in any other United States court.
Petitioner’s affidavit or declaration in support of this motion is attached
hereto.

Christopher Knute Skagen pro se

'3

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS
I, am the petitioner in the above-entitled case. In support of
my motion to proceed in forma pauperis, I state that because of my poverty I
am unable to pay the costs of this case or to give security therefor; and I
believe I am entitled to redress.
1. For Petitioner.
Retirement (such as social security, pensions, annuities, insurance)
United States Social Security $1,100 Month
New Zealand Retirement $350 per month
Other: donations $350 for Highland Bagpipe busking.
Total monthly income: $1,800
2. List your employment history for the past two years, most recent first.
Retired
4. How much cash do you and your spouse have? $
Type of account checking $250
5. List the assets, and their values, which you own or your spouse owns.
Motor Vehicle 2000 Toyota Harrier.
Value $4500. Amount owing is relatively the same as the debt - no equity.
Highland Bagpipes $1,000

4
6. State every person, business, amount owed. I have no people owing me
money.
7. State the persons who rely on you or your spouse for support. For minor
children, list initials.
Daphne Aileen Skagen, daughter age 25. Autistic, (amount see Other below)
8. Estimate the average monthly expenses of you and your family. Show
separately the amounts paid by your spouse.
Rent or home-mortgage payment
$525
Are real estate taxes included? no
Is property insurance included? no
Utilities: $20
Food $600
Clothing $75
Laundry and dry-cleaning $30
Medical and dental expenses $30
Transportation (not including motor vehicle payments) $150
Recreation, entertainment, newspapers, magazines, etc. $140
Insurance Motor Vehicle $35
Other- assistance to autistic daughter. $200.
Taxes (not deducted from wages or included in mortgage payments)

(specify): $0

5
Installment payments
Motor Vehicle $85
Law Society costs judgment $50
9. Do you expect any major changes to your monthly income or expenses or in
your assets or liabilities during the next 12 months? No.
10. Have you paid - or will you be paying - an attorney any money for
services in connection with this case, including the completion of this form?
No
11. Have you paid—or will you be paying—anyone other than an attorney
(such as a paralegal or a typist) any money for services in connection with
this case, including the completion of this
form? No
If yes, how much?
If yes, state the person’s name, address, and telephone number:
12. Provide any other information that will help explain why you cannot pay
the costs of this case.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on: April 15, 2020

Christopher Knute Skagen pro se

